              Management Letter Related to the 

Audit of the International Boundary and Water Commission, 

           United States and Mexico, U.S. Section, 

             2011 and 2010 Financial Statements 




                   AUD/FM- 12-38, June 2012




                      Clarke Leiper, PLLC
                   Certified Public Accountants
                      6265 Franconia Road
                   Alexandria, Virginia 22310
                         (703) 922-7622
                                             CLARKE LEIPER. PLLC
                                          CERTIFIED PUBLIC ACCOUNTAr-rrs
                                                6265 FRANCONIA ROAD
                                              ALEXANDRIA. VA 2231G-2110
                                                    10l-922-1622
                                                   FAX: 103-922-8256

                                                                           May 4, 2012

To the United States Commissioner,
International Boundary and Water Commission,
United States and Mexico, U_S. Section:

We (Clarke Leiper, PLLC) have audited the financial statements of the International Boundary
and Water Commission, United States and Mexico, U.S. Section (USIBWC). as of and for the
years ended September 30. 201 1 and 2010, and have issued our report thereon dated May 4,
2012.1 In planning and performing our audit of USIBWC's financial statements, we considered
USlBWC's internal control over financial reporting and compliance to determine our auditing
procedures for the purpose of expressing an opinion on the financial statements and not to
provide assurance on internal control. Accordingly, we do not express an opinion on the
effectiveness of internal control related to financial reporting and compliance. We have not
considered internal control since the date of our report.
During our audit, we noted certain matters involving internal control over financial reporting and
compliance that we considered to be significant deficiencies under the standards established by
the American Institute of Certified Public Accountants. We reported those significant
deficiencies in the report referenced.
Our audit procedures were designed primarily to enab le us to form an opinion on the financial
statements and therefore may not identify all weaknesses in internal control that may exist.
However, we would like to take this opportunity to use the knowledge we gained during the
audit ofUSfBWC to provide comments and suggestions that we hope will be useful.

Although not considered to be significant deficiencies, we noted certain matters involving
internal control and other operational matters that are presented in Appendix A for your
consideration. These observations are intended to improve USIBWC's internal control or result
in other operating efficiencies.

lbis letter is intended solely for the information and use ofUSfBWC offi cials and the Office of
Inspector General and is not intended to be, and should not be, used by anyone other than these
specified parties_

Comments by USIBWC management on this report are presented as Appendix B.

Very truly yours,



Clarke Leiper, PLLC


I   Independent Auditor 's Report on the International Boundary and Water Commission. United States and Mexico,
u.s. Section, 2011 and 2010 Financial Statements (AUDIFM·12-37, June 2012).
                                                                              Appendix A 

                                                                               Page I of8 


                     Management Letter Related to the Audit of the 

                     International Boundary and Water Commission, 

                         United States and Mexico, U.S. Section, 

                          2011 and 20 I 0 Financial Statements 


                                Obsen'ations and Conclusions

I. Property. Plant. and Equipment

During our (Clarke Leiper, PLLC) testing, we found that USlBWC had transferred $98
million from the construction in progress (eIP) account to the real property account but
was unable to fully provide supporting documentation for $1.7 million of the amount
transferred. In addition, we identified approximately $1.6 million included as elP that
should have been transferred to the real property account. For one fully funded CIP
project, USIBWC was unable to determine what portion of costs pertained to
Government-owned assets. We also learned that US IBWC was unable to verify the
existence or ownership of several items of real property with a total net book value of
$1.2 million.

USIBWC did not have a sufficient process to ensure that transfers of property from C IP
to the real property account were recorded in a timely and accurate manner. In addition,
we found that transferred costs were not complete, as only costs that were supported by
documentation on hand at the time were transferred. USIBWC management also stated
that it did not have support for some of the older CIP amounts because it only maintained
documentation only for a period of 6 years and 5 months. In addition, USIBWC did not
have a routine physical inventory process that would ensure that all real property had
been identified and reported for financial reporting purposes.

We recommend that USIBWC:
   • 	 Perform routine reconciliations ofboth real property and personal property to
       ensure that all property is identified and reported
   • 	 Develop a process to ensure that transfers ofproperty/rom the construction in
       progress account to the real property account are recorded in a timely and
       accurate manner.
   • 	 Maintain sufficient supporting documentation for ongoing construction projects.

2. 	 Unliquidated Obligations

As ofSeptembcr 30, 2011, USIBWC had an unliquidated obligations (ULO) balance of
$99 million. We se lected 114 ULOs for interim testing. OUT testing identified 31
exceptions, resulting in an estimated overstatement of $4.1 million for ULOs .
Specifically, we found the following:

   • 	 28 obligations were deobligated or identified to be deobligated subsequent to our
       request for supporting documentation because they were no longer needed.
                                                                              Appendix A
                                                                               Page 2 of8

   • 	 3 obligations were old and no explanation or documentation was provided to
       support their validity.

USIBWC had developed and implemented standard operating procedures for the review
ofULOs. These procedures called for periodic reviews of both current and prior year
ULOs. We noted that USIBWC had perfonncd a third quarter review ofULOs but had
not properly executed the review to ensure that invalid ULOs were identified in a timely
manner.

We recommend thaI US/BWe:
   • 	 Properly execute its review 0/ unliquidated obligation balances 10 identify and
       deobligafe balances that no longer represent a continuing need.
   • 	 Implement records retention processes to ensure that obligation documentation is
       obtained and maintained in a manner thaI enables ready access.

3. 	 PaVToll Compliance

Our tests ofUSIBWC compliance with payroll-related laws and regulations identified
several exceptions. Specifically. based on a sample of 53 employees, we found the
following:

   • 	 Federal Employees Health Benefits
       o 	 Employee withholdings for two employees did not match the required
           withholdings based on the employees' health benefit selections.
       o 	 Agency contributions for two employees did not match the required
           contributions.
   • 	 Federal Employees Group Life Insurance
       o 	 Employee withholdings for four employees did not match the required
           withholdings.
       o 	 Agency contributi ons for three employees did not match our recalculations.
   • 	 Pay rate verification - The actual pay rate for five employees did not match the
       pay rate in the official personnel fo lders.
   • 	 Retirement
       o Employee withholdings for 12 employees did not match our recalculations.
       o Agency contributions for 12 employees did not match our recalculations.
   • 	 TIuift Savings Plan
       o Employee withholdings for I I employees did not match our recalculations.
       o Agency contributions for 11 employees did not match our recalculations.

In addition, we tested the premium pay rates for eight employees and found that the
actual rates for seven of the eight employees did not match our recalculations.

Employees have the abili ty to make changes to their payroll "vithholdings electronically
via the Federal Web site Employee Express. USIBWC did not have procedures for
reconciling the infonnation on Employee Express to the infonnation in the official
                                                                               Appendix A
                                                                                Page 3 of8

personnel folders. Additionally, some infonnation, specifically updates to pay rates, was
not properly filed in the official personnel folders after changes had been made.

We recommend that US/EWe institute an effective control program over payroll to
ensure thaI a/l employee official personnel folders contain accurate, IIp-ta-date
in/ormation, including the changes made by employees via Employee Express.

4. 	 Earned Revenue

Federal accounting standards require organizations to recognize revenue when goods or
services are provided. We found that USIBWC did not always recognize revenue in a
timely manner. Specifically, during interim testing, we identified six of the 48 items
tested that were recorded entirely or partially in the improper period. During year-end
testing, we found that two of the 10 items tested were recorded in the improper period.
USIBWC did not have a sufficient process in place to ensure that all revenue transactions
were recorded in the proper period or accrued at year end.

We recommend that US/EWe ensure thaI earned revenue transactions are recorded in
the proper period.

5. 	 Environmental Liabilities

We found that US IBWC did not have standard operating policies and procedures for
recognizing, estimating, and recording environmental liabilities. Although USIBWC had
some directives in place related to environmental liabilities, these directives did not
specifically address procedures to recognize, estimate. and record environmental
liabilities. Additionally, some of the directives were outdated.

Environmental liabilities may not occur in the normal course of business for the Federal
Government. USIBWC management had not developed and maintained appropriate
policies and procedures for recognizing, estimating, and recording environmental
liabilities because situations causing environmental liabilities were uncommon.

We recommend that US/BWe:
   • 	 Creale agency-specific standard operating procedures for recognizing, 

       estimating, and recording environmentalliabililies. 

   • 	 Update environmental liability directives to ref/eel current issues and trends.

6. 	Federal Employees' Compensation Act

The Federal Employees' Compensation Act (FECA) provides Federal employees injured
in the performance of duty with workers' compensation benefits. The Department of
Labor calculates each agency's portion of the Government's FECA liability quarterly,
which is required to be included in the agency's financial statemcnts. During our audit,
we found that USlBWC had not recorded the FECA liability for the first two quarters of
FY2011.
                                                                               Appendix A
                                                                                Page 4 of8


USIBWC did not have a sufficient process in place to ensure that the FECA liability was
recorded in an accurate and timely manner. USIBWC also did not sufficiently monitor
the interim financial data to ensure the data were complete.

We recommend that US/RWe improve its financial reporting process to ensure that
liabilities are recorded accurately and in a timely manner.

7. Deferred Maintenance

The auditor identified seven items, totaling $1.3 mi ll ion, that USIBWC had incorrectly
reported as deferred maintenance. US IBWC staff did not have a clear understanding of
the deferred maintenance accounting standards, and USIBWC's internal policies did not
sufficiently implement Federal accounting requirements for deferred maintenance.

We recommend thai US/BWe revise its internal policies and procedures related to
deferred maintenance to ensure that accounting standards are implemellled sufficiently.

8. Prompt Payment

During our testing of nonpersonnel expenses, we identified untimely payments and
incorrect calculations of interest. Out of a sample of 58 expenditures, we identified six
invoices (10 percent) that were not paid within 30 days as required. In addition, we
found that USIBWC had not paid interest on four of these untimely payments because,
according to USIBWC offic ials, US IBWC was operating under a continuing resolution
and there was insufficient funding to pay the invoices.

We found that USIBWC did not have sufficient controls in place to ensure that payments
were made in a timely manner. USIBWC was also unaware that the Prompt Payment Act
applied to payments made while under a continuing resolution.

We recommend that US/BWe improve its vendor payment process to ensure thaI
payments are made in a timely manner and that interest is provided to vendors when
payments are not made in a timely manner.

9. Segregation of Duties

Key duties and responsibilities need to be divided or segregated among different people
to reduce the risk of error or fraud, for instance. separating the responsibilities for
authorizing, processing recording, and reviewing transactions. No one individual should
control all key aspects of a tTansaction or event. However, we found that the same
USIBWC employee entered and approved transactions in USIBWC's accounting system
for 21 of 45 earned revenue transactions tested and 12 of 45 journal vouchers tested.
                                                                               Appendix A
                                                                                Page50fS

We were also unable to identify which employees entered and approved transactions for
29 of 45 accounts payable transactions tested and 12 of45 accounts receivable
transactions tested.

usmwc officials stated that staff had been given permissions in the accounting system
to both enlcr and approve transactions for various transaction types because USIBWC
had limited staffavailable to perform these functions. In addition, US IBWC was unable
to provide documentation showing who had entered and approved transactions with
"KW" and "K.E" document types because available system reports did not provide that
information.

We recommend thar US/BWe:
   • 	 Institute effective internal controls to ensure the appropriate segregation ofduties
       by changing permissions to prevent employees from having access to both entry
       and approvalfimclions. IjUSIBWC is unable to segregate duties appropriately,
       it should implement additional controls to compensate for the lack ofsegregation
       ofduties.
   • 	 Identify the reason that accollnting system reports do not provide information on
       who entered and approved transactions with document types "KW" and "KE"
       and take corrective action to remedy this situation.

1O. 	 Information Technology Security

USIBWC's information technology (IT) internal control structure, both for general
support systems and financial reporting applications, was not adequate. The Office of
Inspector General (010) performed the annual evaluation of USIBWC information
security program compliance with Federal laws, regulations, and standards, as required
by the Federal Information Security Management Act 0[2002. Some of the concerns
OIG identified that related to USIBWC's general support systems could impact the
financial reporting applications as well, including weaknesses related to security training,
personnel security, and physical and environmental protection.

In addition, the Department provides accounting services to US IBWC. An independent
certified public accounting firm audited the Department's 20 11 and 2010 financial
statements. Some of the concerns identified during this audit that related to the
Department's IT internal control structure could impact USIBWC, including weaknesses
related to security management and assurance of systems and applications.

We recommend that USIBWe:
   • 	 Implement (he recommendations included in the Office ofInspector General 's
       Federal Information Security Management Act report for FY 201 /.
   • 	 Evaluate the findings relating to the Department ofState 's information
       technology internal control structure and implement compensating controls if
       needed.
                                                                                            Appendix A
                                                                                             Page6of8

                             Prior Year Managemen t Letter Comments

During the audit ofUSLBWC's 20 10 fmancial statements, we identified matters that we
reported in a management letter? The observations identified during the 2010 audit remain
open. The statuses of the 2010 findings are presented in Table 1.

Table 1. Status of Observations From the FY 2010 Manae:ement Letter
     Observation                                                                                   FY 2011
                                     FY 2010 Observation                       Status
        Number                                                                                     Comment

 1. Property, Plant,      Although USIBWC has taken steps to                   Closed
    and Equipment         improve internal controls related to propeny
                          and equipment, we continued to find
                          deficiencies. Accountabi lity for property
                          located al field offices has been a
                          longstanding concern. The physical
                          inventory repom provided by USIBWC's
                          Property Officer identified several findings
                          relating to accountability over personal
                          property. During our testing, we noted nine
                          lease vehicles that were erroneously
                          recorded as purchased vehicles because the
                          incorrect acquisition code was used. One
                          item that was processed for d isposal was not
                          disposed of because oran error in the
                          accounting system. One item was a
                          duplicate of an item that was disposed of.
                          Three items had negative current year
                          depreciation.

                          We noted that the Property Officer has
                          access to recordkccping and conducts the
                          physical inventories of assets. There should
                          be a separation of duties between accounting
                          for asselS and custod ial or operating
                          responsibil ities.


 2. Undelivered           We noted that USIBWC did nOI have                     Open           See observation 2.
   Orders                 adequate control over undelivered orders
                          (UDO). Management performed an
                          assessment of open UDOs but failed to
                          deobligate those items it identified as
                          unnecessary. USIBWC does not have
                          speci fic procedures that detail the UOO
                          review procedures; rather, it follows
                          requirements for the reviews contained in
                          Dcpanment of the Treas ury and Govemmenl
                          Accountability Office guidance.



    2 Management Letter Related to the Alidil o/the International Boundary and Water Commission. United
    Slates alld Mexico, U.S. Section, 2010 and 2009 Financial Statements (AUDIFM-II-28. May 201 1).
                                                                                Appendix A 

                                                                                 Page7of8 


     Observation                                                                     FY 2011
                                 FY 20 10 Observation                 Status
        Number                                                                       Commenl

3. Payroll            We noted the following discrepancies during     Ope"        See observation 3.
  Compliance          OUf testing of payroll compliance:
                      •   Premium Pay - Actual premium pay for
                          three oftive employees did not match
                          the premium pay rales.
                      •   Retirement - Withholdings for 11 of 51
                          employees did not match the auditor's
                          calculations. Contributions for nine of
                          51 employees did not match the auditor's
                          calculations.
                      •   Pay Rate Verification - The actual pay
                          rate for three of 51 employees did not
                          match the pay rate in the official
                          personnel folders.
                      •   Health Benefits - Withholdings for two
                          of 51 employees and the agency
                          contributions for one of 5 1 employees
                          did not match the auditor's calculations.

                      Employees have the ability to make changes
                      to their payroll withholdings electronically
                      via thc Federal Web site Employee Express.
                      The Office of Personnel Management
                      (OPM) has guidelines for filing documents
                      in personnel folders, including
                      documentation ofbcnefit enrollments
                      processed electronically. USIBWC is
                      subject to OPM personnel recordkecping
                      authority.


4. Earned Revenue     During our audit work, we noted that four of    Ope"        See observation 4.
                      12 earned revenue transactions sampled
                      were recorded in the incorrect period.


S.   Unexpended       USIBWC does nOI have documented                 C losed
     Appropriations   standard operating procedures fo r
                      unexpended appropriations accounts.


6. Journal Vouchers   US1BWC does not have documentcd                 Closed
                      standard operating procedures for processing
                      journal vouchers.

                      Journal vouchers are prepared and approved
                      by the same individuals.
                                                                                     Appendix A 

                                                                                      Page 8 of8 


   Observation                                                                             FY 2011
                              FY 20 I 0 Observation                    Status
     Number                                                                                Comment

7. Environmental   USIBWC does not have agency-specific                 Open           See observation 5.
   Liabilities     standard operating procedures for
                   recognizing, estimating, and recording
                   environmental liabilities.


8 Accounts         During our testing, we identified instances in      Closed
 Receivable        which accounts receivable were recorded in         (based on
                   the wrong period.                                immateriality)
                                                                                           Appendix B 

                                                                                           Page 1 of 10 




                        INTERNATIONAL BOUNDARY AND WATER COMMISSION 

                                  UNITED STATES AND MEXICO 


                                            June 1, 2012



..', fIlU"'''''''''''
     ,.." -,.'"

   United States Department of Slate
   Broadcasting Board of Governors
   OffICe of Inspector General
   Attn: Mr. Harold Geisel, Deputy Inspector General
   Room 8100, SA-3
   2201 C Street, NW.
   Washington, DC 20520-0308


   Subject: Draft Management Letter AUDIFM-12-XX, May 2012 by Clarke Leiper, PllC


   Dear Mr. Geisel:


   Thank you for the opportunity to provide a response 10 the comments on the draft
   independent auditor's managemenlletter with regards to the ftnancial statements of the
   International Boundary and Water Commission, United States and Mexico, U.S. Section
   (USIBWC), as of, and for the years ended September 30, 2011 and 2010.

   We note thai improvements have already been made to our internal policies and
   procedures in response to the recommendations provided in the report, and specific
   responses to each recommendation are provided.

                                         Sincerely,




                                J,,~l!f~r
                                v.:/j'   Commissioner


   Attachment as Stated
   cc: D. Forti, C. Parker


       The Commons. BuildlOg C. SuIt! 100 • 4171 N Mesa Strut . EI Paso, Teus 79902-1441
                (915) 832-4100 · F;II:( (915) 832-4190. httpJ/wMvUSIBWCgoy
                                                                                     Appendix B 

                                                                                     Page 2 of 10 





Please accept this letter as our response to your request for comments on the draft
Management Lener with regards to the financial statements of the International
Boundary and Water Commission, United Slates and Mexico, U.S. Section (USIBWC).
as of, and for the years ended September 30, 2011 and 2010.

            FY 2011 ManOligemant Letter Observations and Conclusions

1. Property. Plant. and Equipment

During our (Clarke Leiper. PllC) testing,   we found that USIBWC had transferred $98
million from the construction in progress (eIP) account to the real property account but
was unable to fully provide supporting dorumentatioo for $1 .7 minion of the amount
transferred. In addition, we identified approximately $1 .6 million included as elP that
should have been transferred to the reat property account. For one fully funded elP
project, USIBWC was unable to determine what portion of costs pertained to
Govemmenl-owned assets. We also learned that USIBWC was unable to verify the
existence or ownership of several items of real property with a total net book value of
$1 .2 million.

USI8WC did not have a sufficient process to ensure that transfers of property from CIP
to the real property account were recorded in a timely and accurate manner. In
addition, we found that transferred costs were not complete, as only costs thai were
supported by documentalioo 00 hand at the Ime were transferred . USIBWC
management also stated that it did not have support for some of the older C1P amounts
because it only maintained documentation only for a period of 6 years and 5 months. In
addition, USI8WC did not have a routine physical Inventory process that would ensure
thai all real property had been identified and reported for financial reporting purposes.

We recommend that USIBWC:

   • 	 Perform routine reconciliations of both reel properly and personal properly to
       ensure that al/ property is id6ntified and reported.
   • 	 Develop a process to ensure that transfers of properly from the construction in
       progress eccount to the reel property 8CCOUnt are recorded in 8 timely and
       accurate manner.
   • 	 Maintain sufficient supporling documentation (or ongoing constflJCtion projects.

Management's Response

Management concurs with the find ing and recommendatiorl. The USIBWC has plans 10
mprove internal processes by conducting annual reviews of USIBWC's real property
inventory in accordance with Executive Order 13327 of February 4. 2004.

In response to personal property issues - since 3rd Quarter FY 2010 USIBWC has
performed quarterly reconciliations of all capitalized personal property and submitted
these for review by auditors if requested.


                                            ,

                                                                                            Appendix B 

                                                                                            Page 3 of 10 





2. 	 Unliquidated Obligations

As of September 30, 2011 , USIBWC had an unliquidated obligation (ULO) balance of
S99 million. We selected 114 ULOs fOf interim testing. Our testing identified 31
exceptions, resulting in an estimated overstatement of $4.1 million for UlOs.
Specifically, we found the following:

   • 	 28 obligations were deobligated Of identified to be deobligated subsequent to our
       request fOf supporting documentation because they were no longer needed.

   • 	 3 obligations were old and no explanation or documentation was provided to
       support their validity.

USIBWC had developed and implemented standard operating procedures fO( the review
of Ul Os. These procedures called f or periodic reviews of both current and prior year
ULOs. We noted that USIBWC had performed a third quarter review of ULOs but had
not property elCecuted the review to ensure that invalid UlOs were identified in a timely
manner.

We recommend /hat      USfB~:


   • 	 Properly execute its re".,iew of tJnliquidatBd obligation baJ8f/C6s to i<:tJntify and de­
       obligato balances that no longer represent 0 continuing need.
   • 	 Implement records retention processes to ensure that obligation documentation
       is obtained and maintained in 8 manlier that enables ready access.

Management's Response

Management concurs with the finding and recommendation. Consistent with Federal
Law 31 U.S.C. 1501 and GAO's Principles of Federal Appropriations Law, the USIBWC
only records obligations to meet legitimate Of bona fide needs and when supported by
documentary evidence. The US1BWC will be developing policies and procedures to
document existing procedures. and to ensure that invalid UlOs are identified in a more
timely manner. More aggressive steps to review UlOs have been implemented during
this fiscal year, recognizing the importance of reviewing UlOs and of ensuring that only
valid UlOs remain obligated. All unliquidated obligations are currently under review.
Deobligation of balances that are no longer valid will be deobligated once all
documentation is obtained, and assurances and certifications are received from the
proponent offices. In addition. the policies and procedures will address a records
retention process to ensure documentation is obtained and maintained in a manner that
enables ready access.

3. Payroll Compliance

Our tests of USIBWC compliance with payroll-related Laws and regulations identified
several exceptions. Specfficalty, based on a sample of 53 employees, we found the
following:

                                               J
                                                                                     Appendix B 

                                                                                     Page 4 of 10 





   • 	 Federal Employees Health Benefrts
      o 	 Employee withhoklings for two employees did not match the required
          withholdings based on the employees' health benefit selections.
      o 	 Agency contributions for two employees did not match the required
          contributions.
   • 	 Federal Employees Group Ufe Insurance
      o 	 Employee withholdings for four employees did nol match the required
           wilhholdings.
       o 	 Agency contributions for three employees did not match our recalculations.
   • 	 Pay rate verification - The actual pay rate for five employees did not match the
       pay rate in the official personnel folders.
   • 	 Retirement
       o Employee withholdings for 12 employees did not match our recalculations ,
       o Agency contributions for 12 employees did not match our recalculations.
   • 	 Thrift Savings Plan
       o Employee withholdings for 11 employees did not match our recalculations.
       o Agency contributions for 11 employees did not match our recaJculatioos.

In addition, we tested the premium pay rates for eight employees and found that the
actual rates for seven of the eight employees did not match our recalculations.

Employees have the ability to make changes to their payroll withholdings electronically
via the Federal Web site Employee Express. USIBWC did not have procedures fO(
reconciling the information on Employee Express to the infOlTTlation in the official
personnel folders. Additionally, some infonnation, specifically updates to pay rates, was
not properly filed in the official personnel folders after changes had been made.

We recommend that USIBWC institute an effective control program over payroll to
ensure that all employee offICial personnel folders contain accurate, up.to-date
information, including the changes made by employees via Employee Express.

Management's Response

Management concurs with the finding and recommendation. The USIBWC also concurs
with Clark.leiper's recommendation to institute effective controls over payrollo ensure
all employee official personnel files contain accurale, up-to-date information, induding
changes made by employees via "Employee Express."

The USIBWC currently does not have an automated personnel system to reconcile
changes to benefits made by employees against personnel files housed in the Human
Resources Office. Funding constraints had precluded this agency from migrating to an
automated system. However. the USIBWC has initiated steps to automate our existing
manual process, which wiD respond to these find ings. An agreement with QPM was
secured in FY 2011 to scan all hard copy files and convert to electronic format - eOPFs
which will then interface with the personnel system. The web-based system will provide
our employees with access to their Official Personnel Folders (OPF) in an electronic
formal. This solution is the Office of Personnel Management's (OPM) Enterprise

                                            •
                                                                                    Appendix B 

                                                                                    Page 5 of 10 





Human Resources Information (EHRI) initiative, the electronic Official Personnel Folder
(eOPF). The eOPFs will be linked to the NBC Federal Personnel and Payroll System.
which will enable USIBWC employees to make changes 10 their personal information
via Employee Express, prOviding updated information to the agency automatically. The
implementation of these two systems upon successful completion, will respond to
Standards fOf Internal Control in the Federal Government and The Guide to Personnel
Recordkeeping, ensuring that all persoonel records adequately document human
resource operations and that transactions are completely and accurately recorded. The
eOPF conversion is expected to be completed by this summer, and the implementation
of the personnel system is planned for July 2012.

4. Earned Revenue

Federal accounting standards require organizations to recognize revenue when goods
or services are provided. We found that USIBWC did not always recognize revenue in
a timely manner. SpeciflC8lly, during Interim testing, we identified six of the 48 items
tested that were recorded entirely or partially in the improper period. During year-end
testing, we found thai two of the 10 items tested were recorded in the improper period.
USIBWC did not have a sufficient process in place to ensure that all revenue
transactions were recorded in the proper period or accrued at year end.

We recommend /hat US/8WC ensure /hat earned revenue transactions ate recon:Jed in
the proper period.

Management's Response

Management concurs with the finding and recommendation. The USIBWC
acknowledges the importance of recording obligations and costs in compliance with
applicable law; also of ensuring that funds, property, and other assets are safeguarded
against waste, loss, unauthorized use or misappropriation; and that revenues and
expenditures applicable to the USIBWC operations are property recorded and
accounted to permit the preparation of accounts and reliable financial and statistical
reports and to maintain accountability over assets.

The USI8WC also acknowledges that ctlanges to processes in place are necessary to
ensure that all receivables, irrelevant of amount, be recorded timely and in the proper
period . The items identified during testing involved accounts receivables for the full
year which were recorded timely. However, estimates were not in place for those
anticipated receivables in the proper period, as required under Federal Financial
Accounting Standard No.7, which requires that exchange revenue transactions be
recognized when goods or services are provided. The corrective measure will be to
record all anticipated exchange revenue based on monthly estimates, since actual are
received a month later at which time adjustments to estimates will be made. This
process will be incorporated in the Finance and Accounting Standard Operating
Procedures for Accounts Receivables.




                                           ,

                                                                                     Appendix B 

                                                                                     Page 6 of 10 





5. 	Enviroomentalliabirties

We found that USIBWC did not have standard operating policies and procedures for
recognizing, estimating, and recording environmental liabilities. Although USIBWC had
some directives in place related to environmental liabilities, these directives did not
specifically address procedures to recognize, estimate, and record environmental
liabilities. Additionally, some of the directives were outdated.

Environmental liabilities may not occur in the oom\al course of busness for the Federal
Government. USIBWC management had not developed and maintained appropriate
policies and procedures for recognizing, estimating, and recording environmental
liabilities because situations causing environmental liabilities were uncommon.

We recommend that US/BWC:
  • 	 Cf&ate 8g8ncy-speciflC standan:1 op6rsting procedures for recognizing,
      estimating. and reco«Jing fHlvironmentalliabi/nies.
  • 	 Update environmenta/liability directives to reflect cummt issues and trends.

Management's Response

Management concurs with the finding and recommendation. The USIBWC maintains
control of environmental liabitities through established procedures and laws for its
primary facilities (reservoirs, wastewater treatment. fuels , chemicals, etc). Control is
achieved through compliance through assessment and reporting as per the law Of
regulation governing the process.       In addition, the USIBWC is implemenmg an
Environmental Management System (EMS) to address other USIBWC activities that are
not permitted or tracked and are specifIC to each facility. A new directive has been
drafted and along with the EMS plan, will provide controls to recognize and estimate
environmental liabilities.

6. 	 Federal Employees' Compensation Act

The Federal Employees' Compensation Act (FECAl provides Federal employees
injured in the perfonnance of duty with workers' compensation benefits. The Dept of
Labor calculates each agency's portion of the Governmenfs FECA liability quarterly,
which is required to be included in the agency's financial statements. During our audit,
we found that USIBVVC had not recorded the FECA liability fOf the first two quarters of
FY 2011 .

USI8WC did not have a suffICient process in place to ensure that the FECA Habltily was
recorded in an accurate and timely manner. USIBWC also did not sufficiently monitor
the interim financial data to ensure the data were complete.

We recommend that US/BWC improve its flflsncial reporting process to ensute that
liabilities a/"9 recorded accurately and in a timely manner.



                                            ,

                                                                                        Appendix B 

                                                                                        Page 7 of 10 





Management's Response

Management concurs with the finding and recommendation. The USIBWC is cognizant
of its financial reporting obligations and of the importance of recognizing liabilities when
they are incurred in compliance A-136 Financial Reporting Requirements.

The USIBWC will record for the fiscal year, by quarter the Federal Employees'
Compensation Act (FECA) liabilities estimate based on prior year's average where
estimates and reports from the Department of labor are not available. In addition, the
USIBWC will record estimates for FECA liabilities for the upcoming FY upon notification
from the Department of Labor. This process will be incorporated in the Finance and
Accounting Standard Operating Procedures for Accounts Paybles.

7. Deferred Maintenance

The auditor identified seven items, totaling $1.3 million , that USIBWC had incorrectly
reported as deferred maintenance. USIBWC staff did not have a clear understanding of
the deferred maintenance accounting standards, and USIBWC's internal policies did not
sufflCienlly implement Federal accounting requirements for deferred maintenance.

We recommend that us/awc revise its internal policies and procedures related to
deferred maintenance to ensure that accounting standards are implemented sufficiently.

Management's Response

Management concurs with the finding and recommendation. The USIBWC has made
significant changes to improve its internal policies and procedures on deferred
maintenance to ensure full compliance with Statement of Federal Financial Accounting
Standards (SFFAS) No. 14, Amendments to Deferred Maintenam::e Reporting.
However, the USIBWC acknowledges the need to more clearty identify assets for
preventive maintenance requirements, and requirements which will expand and or
modify the capacity or intent of the asset. Revisions will be made to the USIBW C's
deferred maintenance policies and procedures consistent with the definitions provided
under SFFAS No.14.

8. Prompt Payment

During our testing of nonpersonnel expenses, we identified untimely payments and
incorrect calculations of interest. Out of a sample of 58 expenditures, we identified six
invoices (10 percent) that were not paid within 30 days as required. In addition, we
found that USIBWC had nol paid interest on four of these untimely payments because,
according to USIBWC officials, USI8WC was operating under a continuing resolution
and there was insufficient funding 10 pay the invoices.

We found that USIBWC did not have suffident controls in place to ensure that payments
were made in a timely manner. USIBWC was also unaware thai the Prompt Payment
Act applied to payments made while under a continuing resolution.

                                             7
                                                                                       Appendix B 

                                                                                       Page 8 of 10 





We recommend that USIBWC improve its vendor payment process to ensure that
payments are made in a timely manner and that interest is provided to vendors when
payments are not made in a timely manner.

Management's Response

Management concurs with the finding and recommendation. The agency has
implemented improvements to its internal control processes in FY 2012 to ensure that
payments for vendor invoices that are late due to the lack of appropriations include
interest in accordance with the policies and procedures of the Prompt Pay Act.

9. 	 Segregation of Duties

Key duties and responsibilities need to be divided or segregated among different people
to reduce the risk of error or fraud, for instance. separating the responsibilities for
authorizing, processing recording, and reviewing transactions. No one individual shook!
control all key aspects of a transaction or even t. However, we found that the same
USIBWC employee entered and approved transactions in USIBWC's accounting system
for 21 of 4S earned revenue transactions tested and 12 of 45 Journal vouchers tested.

We were also unable to identify which employees entered and approved transactions
for 29 of 45 accounts payable transactions tested and 12 of 45 accounts receivable
transactions tested.

USIBWC officials stated that staff had been given permissions in the accounting system
to both enter and approve transactions for various transaction types because USIBWC
had limited staff available to perform these functions. In addition, USI8WC was unable
to provide documentation showing who had entered and approved transactions with
"KW" and "KE" document types because available system reports available did not
provide that information.

We recommend that USfBWC:

   • 	 Institute effective intemel controls to ensure the eppropriate segregation of duties
       by changing permissions to prevent employees from having access to both entry
       and approval funclions. If USIBW e is unable to segregate duties appropriately, ;r
       should implement additional controls to compensate for the lack of segregation of
       duties.
   • 	 Identify the reason that accounting system reporls do not provide information on

   • 	 who entered and approved transactions with document types "KIN" and O
                                                                           K£" and
       take corrective aclion to remedy this situation.

Managem ent's Response

Management concurs with the finding and recommendation. The USIBWC
acknowledges the responsibility of dividing or segregating duties among different people


                                            •

                                                                                         Appendix B 

                                                                                         Page 9 of 10 





to reduce the risk of error or fraud, which also Includes separating the responsibilities for
aulhortzing transactions. processing and recording them, reviewing the transactions,
and handling any related assets. During the implementation of the Department of
State's Global Financial Management System (GFMS), the USIBWC relied on internal
controls inherent to the system. The Finance & Accounting Division implemented
compensating controls, which required the chief of this unit to review. initial and date all
documents to ensure transactions were processed aocurately, providing the required
oversight and control over transactions processed by all individuals.

The USIBWC has since requested and implemented changes to user privileges for this
unit, restricting access by individual to only pass 1 or pass 2 given that the initial users
profiles lacked the necessary controls over segregation of duties. Only three of the frve
individuals in this unit are authorized or have access to perform pass 1 functions . The
other two individuals are only authorized or have access to perform pass 2 transactions.
The attached print screen "KD_1 _18_12_1.tif' reflects this control, allowing only James
Walker and Rick livengood to approve I perform pass 2 transactions.

The Standards Operating Procedures for Accounts Payables and Accounts Receivables
is being updated to reflect these changes. In regards to 'KE' and 'K!rN' transactions
lacking user information, the USISWC cannot determine the reason why the GFMS
reports do not provide information on who entered transactions with documents 'K!rN'
and 'KE'. The USIBWC will be cootacting system prograrrvners and proponents to pose
the question. The USISWC is, however able to identify who approved or pertormed
pass 2 transactions. The attached GFMS print screen documents (KWB_l1.tif and
KE_1 _18.tif) identify the individuals who approved/performed pass 2 transactions. The
USIBWC does acknowledge that creator and approval information for KE and KW
transactions is not part of the template within GFMS, thereby not identifying the
individuals performing these two functions within the document. Based on the review of
the options available within GFMS, it appears the information limitations afe within the
GFMS system.

10. Information Technology Securitv

USIBWC's information technology (IT) internal control structure, both for general
support systems and financial reporting applications, was not adequate. The OffICe of
Inspector General (OIG) performed the annual evaluation of USIBWC information
security program compliance with Federal laws, regulations, and standards, as required
by the Federal Information Security Management Act of 2002. Some of the concerns
OIG identified that related to USIBWC's general support systems could impact the
financing reporting applications as well, including weaknesses related to security
training, personnel security, and physical and environmental protection.

In addition, !he Department provides accounting services to USIBWC. An independent
certified public accounting firm audited the Departmenfs 2011 and 2010 financial
statements. Some of the concerns identified during this audit that related to the
Department's IT internal control structure could impact USIBWC, including weaknesses
related to security management and assurance of systems and applications.

                                              ,

                                                                                     Append ix B
                                                                                    Page 10 of \0




We recommend thai US/BWC:

   • 	 Implement the recommendations included in the Office of Inspector General's
       Federal Information Security Managemsnt Act reporl for FY 2011 .
   • 	 Evaluate the findings relating to the Department 01 State 's infonnation technology
       in/emal control stroctUI8 and implement compensating controls if needed.

Managemenfs Response

Management concurs with lhe finding and recommendation. The USIBWC
acknowledges its re$pOllsibiJity for complying with the recommendations included in the
Office of Inspector General's Federal Information Security Management Act report for
FY 2011 . The USIBWC provided DIG a response report on 412312012 and copies of
both reports are available upon request.

Thank you again for the opportunity to respond to this draft report and please advise us
of any follow-up questions, comments, or concerns about this response letter.

You may reach Diana Forti, Chief Administrative Officer at 915-832-4123 or Christopher
Parker, Internal Audit Program Manager at 915-832-4794 or via email at
Diana.Forti@USIBWCgoVOf Christoptter.Parker@USIB'WC.qov.




                                            "

